U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Dwyne Byron Deruise aka Duke v. United States of America,
S.Ct. No. 20-6953

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 7,
2021, and placed on the docket on January 26, 2021. The government’s response is due on
February 25, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 29, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6953
DERUISE, DWYNE BYRON AKA DUKE
USA

PETER VINCENT BIRCH
ASSISTANT FEDERAL PUBLIC DEFENDER
450 AUSTRALIAN AVENUE
SUITE 500
WEST PALM BEACH, FL 33401
561-833-6288
PETER_BIRCH@FD.ORG

